A-*'

•■w

Uittfcb States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted November 23, 2020
Decided December 1, 2020
Before
FRANK H. EASTERBROOK, Circuit Judge
MICHAEL S. KANNE, Circuit Judge

No. 20-1883
JIMMY L. NAVE, JR.,
Petitioner-Appellant,

Appeal from the United States District
Court for the Southern District of Indiana,
Terre Haute Division.

v.
No. 2:19-cv-00051-JRS-DLP
WARDEN OF WABASH VALLEY
CORRECTIONAL FACILITY,
Respondent-Appellee.

James R. Sweeney II,

Judge.

ORDER
Jimmy Nave has filed a notice of appeal from the denial of his 28 U.S.C. § 2254
petition and a request for a certificate of appealability. We have reviewed the final order
of the district court and the record on appeal. We find no substantial showing of the
denial of a constitutional right. See 28 U.S.C. § 2253(c)(2).
Accordingly, we DENY the request for a certificate of appealability.

\\

A

4

^ Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 1 of 11 PagelD #: 336

UNITED STATES DISTRICT COURT
SOUTHERN DISTRICT OF INDIANA
TERRE HAUTE DIVISION
JIMMY LEE NAVE, JR.,
Petitioner,
v.

WARDEN,
Respondent.

)
)
)
)
)
)
)
)
)

No. 2:19-cv-00051 -JRS-DLP

Order Denying Petition for a Writ of Habeas Corpus
In his petition for a writ of habeas corpus, petitioner Jimmy Lee Nave, Jr. challenges his
2013 Madison County conviction for kidnapping. For the reasons explained in this Order,
Mr. Nave’s petition for a writ of habeas corpus is denied, and the action is dismissed with
prejudice. In addition, the Court finds that a certificate of appealability should not issue.
I. Background
District court review of a habeas petition presumes all factual findings of the state court to
be correct, absent clear and convincing evidence to the contrary. See 28 U.S.C. § 2254(e)(1);
Daniels v. Knight, 476 F.3d 426, 434 (7th Cir. 2007). The Indiana Court of Appeals summarized
Mr. Nave’s offense as follows:
On February 16, 2013, Ruth Clark, who was eighty-one years old at the time, left a
shopping mall in Madison County and returned to her car in the mall parking lot.
After Clark entered her car and sat in the driver’s seat, a man later identified as
Nave entered the back seat of her car, reached around Clark’s seat, grabbed her by
the face and mouth, and held a six-to-eight-inch knife to her neck. Clark was unable
to move her arms due to this restraint by Nave but still attempted to call for help.
Nave told her to “shut up” and ordered her to “drive.” Tr. p. 31.
Fortunately for Clark, Robert Derrickson, a mall employee who was in the parking
lot at the time, heard Clark’s muffled screams and responded. Derrickson saw Nave
in Clark’s car with his hand over her mouth. Derrickson went to the car and asked
Nave, “what [is] going on[?]” Tr. pp. 56-57. When Nave saw Derrickson, he exited

B,

\\

< Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 2 of 11 PagelD #: 337

the other side of the vehicle. Nave did not immediately leave the vicinity and stood
face-to-face with Derrickson briefly until he began to walk away and leave the mall
area. Derrickson noticed that Nave had something dark in his hand but was unable
to identify what it was. Derrickson later identified Nave as the man he had seen in
Clark’s car.
As a result of this incident, Clark was visibly shaken. Although she initially told the
police she was unhurt, she in fact had a bleeding wound on her face and later
developed bruises on her face and hands.
On February 22,2013, the State charged Nave with Class A felony kidnapping and
Class B felony attempted carjacking. On June 24,2013, a bench trial was held. Nave
testified and admitted that he had gotten into Clark’s car, but claimed that he did so
only to confront her because she had backed into his vehicle. The trial court rejected
Nave’s version of events and found him guilty as charged.
At a sentencing hearing held on July 1, 2013, the trial court vacated the Class B
felony conviction on double jeopardy grounds and sentenced Nave only on the Class
A felony conviction......The trial court then sentenced Nave to thirty-eight years,
with three years thereof suspended to probation.
Nave v. State, 998 N.E.2d 1001, 2013 WL 6236765, *1-2 (Ind. Ct. App. Dec. 3, 2013) (‘Wave 7”).
Mr. Nave sought transfer to the Indiana Supreme Court which was denied.
Following his direct appeal, Mr. Nave filed a petition for post-conviction relief in state
court. As relevant here, he asserted that both his trial and appellate counsel provided ineffective
assistance of counsel in several respects. See dkt. 8-2 at 9; Nave v. State, 2018 WL 4275432, at
*3-5 (Ind. Ct. App. Aug. 29, 2018) (“Nave 77”). The trial court denied Mr. Nave’s petition
following a hearing, and the Indiana Court of Appeals affirmed. Id. at *5. The Indiana Supreme
Court denied Mr. Nave’s petition to transfer. Dkt. 7-9 at 11.
Mr. Nave next filed the instant petition for a writ of habeas corpus pursuant to
28 U.S.C. § 2254 with this Court alleging that trial counsel was ineffective for (1) failing to object
to his warrantless arrest, and (2) failing to object to Robert Derrickson’s in-court identification of
him.

2

u Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 3 of 11 PagelD #: 338

II. Applicable Law
A federal court may grant habeas relief only if the petitioner demonstrates that he is in
custody “in violation of the Constitution or laws ... of the United States.” 28 U.S.C. § 2254(a).
The Antiterrorism and Effective Death Penalty Act of 1996 (“AEDPA”) directs how the Court
must consider petitions for habeas relief under § 2254. “In considering habeas corpus petitions
challenging state court convictions, [the Court’s] review is governed (and greatly limited) by
AEDPA.” Dassey v. Dittmann, 877 F.3d 297, 301 (7th Cir. 2017) (en banc) (citation and quotation
marks omitted). “The standards in 28 U.S.C. § 2254(d) were designed to prevent federal habeas
retrials and to ensure that state-court convictions are given effect to the extent possible under law.”
Id. (citation and quotation marks omitted).
A federal habeas court cannot grant relief unless the state court’s adjudication of a federal
claim on the merits:
(1) resulted in a decision that was contrary to, or involved an unreasonable
application of, clearly established Federal law, as determined by the Supreme
Court of the United States; or
(2) resulted in a decision that was based on an unreasonable determination of the
facts in light of the evidence presented in the State court proceeding.
28 U.S.C. § 2254(d).
“The decision federal courts look to is the last reasoned state-court decision to decide the
merits of the case, even if the state’s supreme court then denied discretionary review.” Dassey,
877 F.3d at 302. “Deciding whether a state court’s decision ‘involved’ an unreasonable application
of federal law or ‘was based on’ an unreasonable determination of fact requires the federal habeas
court to train its attention on the particular reasons—both legal and factual—why state courts
rejected a state prisoner’s federal claims, and to give appropriate deference to that decision[.]”
Wilson v. Sellers, 138 S. Ct. 1188, 1191-92 (2018) (citation and quotation marks omitted). “This
3

' ^ Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 4 of 11 PagelD #: 339

is a straightforward inquiry when the last state court to decide a prisoner’s federal claim explains
its decision on the merits in a reasoned opinion.” Id. “In that case, a federal habeas court simply
reviews the specific reasons given by the state court and defers to those reasons if they are
reasonable.” Id.
“For purposes of § 2254(d)(1), an unreasonable application of federal law is different from
an incorrect application of federal law.” Harrington v. Richter, 562 U.S. 86, 101 (2011). “A state
court’s determination that a claim lacks merit precludes federal habeas relief so long as fairminded
jurists could disagree on the correctness of the state court’s decision.” Id. “If this standard is
difficult to meet, that is because it was meant to be.” Id. at 102. “The issue is not whether federal
judges agree with the state court decision or even whether the state court decision was correct. The
issue is whether the decision was unreasonably wrong under an objective standard.” Dassey, 877
F.3d at 302. “Put another way, [the Court] ask[s] whether the state court decision ‘was so lacking
in justification that there was an error well understood and comprehended in existing law beyond
any possibility for fairminded disagreement.’” Id. (quoting Richter, 562 U.S. at 103).
III. Discussion
Mr. Nave alleges that trial counsel rendered ineffective assistance of counsel. To succeed
on a claim that trial counsel was ineffective, a petitioner must show that counsel’s performance
was deficient and prejudicial. Maier v. Smith, 912 F.3d 1064, 1070 (7th Cir. 2019) (citing
Strickland v. Washington, 466 U.S. 668, 689-92 (1984)). Deficient performance means that
counsel’s actions “fell below an objective standard of reasonableness,” and prejudice requires “a
reasonable probability that, but for counsel’s unprofessional errors, the result of the proceeding
would have been different.” Strickland, 466 U.S. at 688, 694.

4

Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 5 of 11 PagelD #: 340

The last reasoned opinion at issue here is the Indiana Court of Appeals’ decision affirming
the denial of Mr. Nave’s petition for post-conviction relief. The Indiana Court of Appeals correctly
articulated the Strickland standard in Mr. Nave’s post-conviction memorandum decision. Nave II,
2018 WL 4275432 at *2. Mr. Nave complains about two aspects of trial counsel’s performance.
The Court will address each in turn.
i.

Probable Cause Affidavit

Mr. Nave contends that his trial counsel provided ineffective assistance by failing to
challenge the probable cause affidavit issued after his warrantless arrest. “[A] warrantless arrest
by a law officer is reasonable under the Fourth Amendment where there is probable cause to
believe that a criminal offense has been or is being committed.” Devenpeck v. Alford, 543 U.S.
146,152 (2004). Mr. Nave challenges two statements in the affidavit and alleges that without these
statements there was no probable cause to issue the warrant.
The Indiana Court of Appeals summarized the contents of the affidavit as follows:
[T]he probable cause affidavit stated that Ruth Clark described her assailant as an
African-American male wearing “dark clothing, dark knit cap and dark jacket.” She
further stated the assailant left the scene by walking to the north comer of the mall.
Similarly, Robert Derrickson described the suspect as an African-American male
wearing “Blk [sic] cap, leather looking coat, dark pants possibly work pants.” He
told the officer the suspect walked north around the mall.
Next, the affidavit indicates Nave arrived at Manie Vive’s garage to ask for a ride.
Vive described Nave’s clothing to the officer and gave the officer Nave’s name.
The clothing was “the same described by the victim and witness.” Vive told the
police Nave said he had just come from the mall.
Another officer went to Nave’s residence and saw a “similar looking male” walk
up to the home. The male identified himself as Nave’s brother, Chris Nave. Chris
told the officer that Nave had called him to say he was “in trouble.”
Nave II, 2018 WL 4275432, at *3 (record citations omitted).
The Court of Appeals concluded that this information “would warrant a reasonable person

5

’ v Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 6 of 11 PagelD #: 341

to believe that Nave was the person who attacked Clark,” so trial counsel was not ineffective for
not filing a motion to suppress that would not have been granted. Id.
The Court agrees. “To determine whether an officer had probable cause for an arrest,” the
Reviewing court “‘examine[s] the events leading up to the arrest, and then decidefs] whether these
historical facts, viewed from the standpoint of an objectively reasonable police officer, amount to
probable cause.’” District of Columbia v. Wesby, 138 S. Ct. 577, 586 (2018) (quoting Maryland v.
Pringle, 540 U.S. 366, 371 (2003)) (internal quotation marks omitted). Whether probable cause
exists “depends on the totality of the circumstances.” Maryland, 540 U.S. at 371. The Indiana Court
of Appeals reasonably concluded that the information included in the affidavit supported a finding
of probable cause.
Further, the Court disagrees with Mr. Nave’s argument that the detective lied or presented
misleading evidence in the affidavit. Dkt. 2 at 3; dkt. 11 at 3. Mr. Nave challenges the veracity of
two statements: (1) “The suspect was later identified as Jimmy Lee Nave after he went to Manies
[sic] Garage and asked for a ride,” and (2) “Manie Vive described Nave’s clothing as being the
same described by the victim and witness.” As the Seventh Circuit has explained:
“A warrant request violates the Fourth Amendment if the requesting officer
knowingly, intentionally, or with reckless disregard for the truth, makes false
statements in requesting the warrant and the false statements were necessary to the
determination that a warrant should issue.” Knox v. Smith, 342 F.3d 651, 658 (7th
Cir. 2003). We have said that a “reckless disregard for the truth” can be shown by
demonstrating that the officer “entertained serious doubts as to the truth” of the
statements, had “obvious reasons to doubt” their accuracy, or failed to disclose facts
that he or she “knew would negate probable cause.” Beauchamp v. City of
Noblesville, Ind, 320 F.3d 723, 743 (7th Cir. 2003).
Betker v. Gomez, 692 F.3d 854, 860 (7th Cir. 2012). Neither of the statements challenged by Mr.
Nave were false, just incomplete. With respect to the first statement, shortly after the attack
occurred, Samuel Morgan, an acquaintance of Mr. Nave’s from high school, gave Mr. Nave a ride

6

- Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 7 of 11 PagelD #: 342

to Mr. Vive’s mechanic shop from the Long John Silver’s where Mr. Morgan and his girlfriend,
Sarah Aynes worked. Tr. 88-92. The police went to the Long John Silver’s after the attack because
it was adjacent to the mall, and Ms. Aynes told officers her boyfriend had just given a black male a
ride. Tr. 17. Mr. Vive was also familiar with Mr. Nave from working on Mr. Nave’s family’s cars.
Tr. 101. Mr. Nave told Mr. Vive he needed help with his car because he had hit a woman’s car in
the mall parking lot. Tr. 103. Mr. Vive drove by the mall, and Mr. Nave pointed out the car where
the police were. Tr. 103-05. Mr. Vive told Mr. Nave he should talk to police and let the insurance
company handle the accident, but he declined. Tr. 105. After Mr. Vive dropped Mr. Nave off, he
received a phone call from his shop telling him the police wanted to speak with him about Mr.
Nave, so he went to the police station and provided a statement. Tr. 105. The fact that the affidavit
did not specify who first identified Mr. Nave by name to the police (presumably Mr. Morgan or Mr.
Vive) does not make the statement a lie. The affiant did not show reckless disregard for the truth,
nor did he withhold facts that would have negated a finding of probable cause. Rather, the details
omitted from the affidavit but testified to at trial bolster the finding of probable cause.
Mr. Nave quibbles with the second statement— “Manie Vive described Nave’s clothing as
being the same described by the victim and witness”—because the affidavit did not include
Mr. Vive’s description of Mr. Nave’s clothes. But Mr. Vive testified at trial that Mr. Nave wore a
black beanie, black jacket, and black jeans, which was similar to the description of Mr. Nave’s
clothes that Ms. Clark and Mr. Derrickson had provided to police. Tr. 106-07. Again, the affiant
did not lie, he just did not draft the affidavit with the level of clarity that Mr. Nave argues was
necessary.
In summary, the Indiana Court of Appeals correctly concluded that there was( enough
information in the affidavit to support a finding of probable cause, and therefore trial counsel did

7

i

!

Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 8 of 11 PagelD #: 343

not perform deficiently for failing to challenge it. Habeas relief is not warranted on this basis.
ii.

In-Court Identification
Mr. Nave next challenges trial counsel’s effectiveness for failing to object to

Mr. Derrickson’s in-court identification of him. Mr. Derrickson was the mall employee who
approached Ms. Clark’s car after he heard her muffled screams. Mr. Derrickson testified that he
had gotten “a good look” at Mr. Nave after Mr. Nave exited Ms. Clark’s car. Tr. 65. A detective
showed Mr. Derrickson a photo line-up the day of the attack, but he did not identify any suspect.
Tr. 73-74. The detective told Mr. Derrickson during that interview that the pictures in the lineup
were “not the greatest” due to using an older system to print the pictures and told Mr. Derrickson
that he might show him another lineup with clearer pictures later. Dkt. 8-5 at 10-11. Several days
later—after Mr. Derrickson had seen a news article with Mr. Nave’s name and picture—the
detective went to his workplace and showed him another lineup. Tr. 68-69, 74. Mr. Derrickson
selected Mr. Nave’s picture in the second lineup. Tr. 66. The first photo lineup was not preserved,
but Mr. Nave argues that the court must presume that he was in the first lineup and that it was only
through the detective’s suggestiveness that Mr. Derrickson was able to select-him in the second
lineup.
The Seventh Circuit has “held that a ‘witness’s identification violates a defendant’s right
to due process when the identification procedure is so impermissibly suggestive as to give rise to
a very substantial likelihood of irreparable misidentification.’” Lee v. Foster, 750 F.3d 687, 691
(7th Cir. 2014) (quoting United States v. Recendiz, 557 F.3d 511, 524 (7th Cir. 2009)). “Due
process will only prohibit evidence when it ‘is so extremely unfair that its admission violates
fundamental conceptions of justice.’” Id. (quoting Perry v. New Hampshire, 565 U.S. 228, 237)
(2012)). Further, an identification procedure may be unduly suggestive yet still reliable and,

8

Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 9 of 11 PagelD #: 344

therefore, admissible. Id. at 692. Several factors to determine reliability should be considered:
(1) the opportunity of the witness to observe the criminal at the time of the crime
(or prior to the identification); (2) the witness’s degree of attention; (3) the accuracy
of the witness’s prior description of the criminal; (4) the level of certainty
demonstrated by the witness at the time of the identification; and (5) the length of
time between the crime and the identification.
Id. (citing Neil v. Biggers, 409 U.S. 188, 199-200 (1972)). A witness’s inconsistencies are
generally relevant to his credibility, not the admissibility of his testimony. Id.
As noted in the appellate opinion, Mr. Derrickson testified that he got a good look at
Mr. Nave because Mr. Nave stood face-to-face with him outside the car before walking away.
Mr. Derrickson described Mr. Nave as being about 6’ and 180 pounds, and Mr. Nave is 5’11” and
170 pounds. Compare dkt. 8-5 at 10 with dkt. 7-1 at 1. Mr. Derrickson selected Mr. Nave’s picture
only ten days after the crime. While he did not select a picture from the first line-up, that was
explained by the detective’s concern about the poor picture quality. Mr. Nave’s trial counsel
highlighted the fact that Mr. Derrickson identified Mr. Nave only after he saw his picture in the
newspaper. Tr. 69. Weighing the reliability factors, Mr. Derrickson’s identification of Mr. Nave
was sufficiently reliable. If Mr. Nave’s trial counsel had objected to Mr. Derrickson’s in-court
identification, the objection would not have been sustained. Thus, the Indiana Court of Appeals
correctly recognized that trial counsel’s performance could not have been deficient if the unraised
objection would not have been sustained. See Jones v. Brown, 756 F.3d 1000, 1008-09 (7th Cir.
2014) (“If evidence admitted without objection is, in fact, admissible, then ‘failing to object to that
evidence cannot be a professionally ‘unreasonable’ action.’”) (quoting Hough v. Anderson, 272
F.3d 878, 898 (7th Cir. 2001)).
Further, even if counsel had successfully objected to the in-court identification, Mr. Nave
would have been unable to prove the prejudice prong of Strickland. Mr. Nave admitted to police

9

i r

Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 10 of 11 PagelD #: 345

that he was in Ms. Clark’s car, and he testified as such at trial. Mr. Derrickson’s identification of
Mr. Nave was not the evidentiary linchpin needed to convict Mr. Nave because he identified
himself. Therefore, Mr. Nave cannot show a reasonable probability that suppressing
Mr. Derrickson’s testimony would have changed the outcome of trial. Strickland, 466 U.S. at 694.
In summary, the Indiana Court of Appeals’ determination that the identification was
admissible and therefore trial counsel did not render ineffective assistance for failing to object to
it was a reasonable application of Strickland. Habeas relief is not warranted on this basis.
IV. Certificate of Appealability
“A state prisoner whose petition for a writ of habeas corpus is denied by a federal district
court does not enjoy an absolute right to appeal.” Buck v. Davis, 137 S. Ct. 759, 773 (2017).
Instead, the prisoner must first obtain a certificate of appealability. See 28 U.S.C. § 2253(c)(1).
“A certificate of appealability may issue ... only if the applicant has made a substantial showing
of the denial of a constitutional right.” 28 U.S.C. § 2253(c)(2). In deciding whether a certificate of
appealability should issue, “the only question is whether the applicant has shown that jurists of
reason could disagree with the district court’s resolution of his constitutional claims or that jurists
could conclude the issues presented are adequate to deserve encouragement to proceed further.”
Buck, 137 S. Ct. at 773 (citation and quotation marks omitted).
Rule 11(a) of the Rules Governing Section 2254 Proceedings in the United States District
Courts requires the district court to “issue or deny a certificate of appealability when it enters a
final order adverse to the applicant.” Here, no reasonable jurist could disagree that Mr. Nave’s
claims are barred by 28 U.S.C. § 2254(d) or are otherwise without merit. A certificate of
appealability is therefore denied.

10

\ *

; *

‘ Case 2:19-cv-00051-JRS-DLP Document 12 Filed 02/12/20 Page 11 of 11 PagelD #: 346

V. Conclusion
Mr. Nave’s petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254 is denied,
and a certificate of appealability shall not issue. Final judgment in accordance with this decision
shall issue.
IT IS SO ORDERED.
Date:

2/12/2020
JAMES R. SWEENEY II, JUDGE
United States District Court
Southern District of Indiana

Distribution:
JIMMY LEE NAVE, JR.
232904
WABASH VALLEY - CF
WABASH VALLEY CORRECTIONAL FACILITY - Inmate Mail/Parcels
Electronic Service Participant - Court Only
Jesse R. Drum
INDIANA ATTORNEY GENERAL
jesse.drum@atg.in.gov

11

:

3Jn t\)t

!

3inbtana Supreme Court
;;

Court of Appeals Case No.
48A04-1708-PC-02007

Jimmy Nave, Jr.,
Appellant(s)

Trial Court Case No.
48C04-1412-PC-44

■!;

v.

FILED

State Of Indiana,
Appellee(s).

Jan 10 2019, 3:03 pm

CLERK

Indiana Supreme Court
. Court of Appeals .
W and Tax Court ^

•!

Order;
!

i

•!(

;i:
!

This matter has come before the Indiana Supreme Court on a petition to transfer
jurisdiction, filed pursuant to Indiana Appellate Rules 56(B) and 57, following the issuance of a
decision by the Court of Appeals. The Court has reviewed the decision of the Court of Appeals,
and the submitted record on appeal, all briefs filed in the Court of Appeals, and all materials
filed in connection with the request to transfer jurisdiction have been made available to the
Court for review. Each pai ticipating member has had the opportunity to voice the t Justice’s
views on the case in confei ;nce with the other Justifjs, and each participating me niber of the
*r
Court has voted on the petition.
Being duly advised, the Court DENIES the petition to transfer.
Done at Indianapolis, Indiana, on 1/10/2019' ,

I

\

!

■i

!

: I

■!:

1

!■

Loretta H. Rush
Chieif Justice of Indiana

,!i

|:!i

Si

All Justices concur.

.f
j

i 'j;
•j!
r.

iH:s; i

i

1

!.

:■

. t

1 i!

i

!

il

;!

;‘i

i

t

e

c

'
\\
;
i
j

*

MEMORANDUM DECISION

FILED

Pursuant to Ind. Appellate Rule 65(D), this
Memorandum Decision shall not be regarded as
precedent or cited before any court except for the
purpose of establishing the defense of res judicata,
collateral estoppel, or the law of the case.

Aug 29 2018, 10:42 am

CLERK

Indiana Supreme Court
. Court of Appeals .
W and Tax Court ^

Attorney for Appellant

Attorneys for Appellee

Mark Small
Indianapolis, Indiana

Curtis T. Hill, Jr.
Indiana Attorney General

Kelly A. Loy
Supervising Deputy Attorney General
Indianapolis, Indiana

IN THE

COURT OF APPEALS OF INDIANA
Jimmy Nave, Jr.,

August 29, 2018

Appellant-Petitioner,

Court of Appeals Case No.
48A04-1708-PC-2007
Appeal from the Madison Circuit
Court

v.

State of Indiana,

The Honorable David A. Happe,
Judge

Appellee-Respondent.

Trial Court Cause No.
48C04-1412-PC-44

Sharpnack, Senior Judge.

Statement of the Case
[i]

Jimmy Nave, Jr., appeals the denial of his petition for post-conviction relief.
We affirm.
Court of Appeals of Indiana | Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 1 of 12

Issue
[2]

Nave raises two issues, which we consolidate and restate as: whether the post­
conviction court erred in rejecting his claims of ineffective assistance of trial
counsel and appellate counsel.

Facts and Procedural History
[3]

The facts of Nave’s criminal case are as follows:
On February 16, 2013, Ruth Clark, who was eighty-one years old
at the time, left a shopping mall in Madison County and returned
to her car in the mall parking lot. After Clark entered her car and
sat in the driver’s seat, a man later identified as Nave entered the
back seat of her car, reached around Clark’s seat, grabbed her by
the face and mouth, and held a six-to-eight-inch knife to her
neck. Clark was unable to move her arms due to this restraint by
Nave but still attempted to call for help. Nave told her to “shut
up” and ordered her to “drive.” Tr. p. 31.
Fortunately for Clark, Robert Derrickson, a mall employee who
was in the parking lot at the time, heard Clark’s muffled screams
and responded. Derrickson saw Nave in Clark’s car with his
hand over her mouth. Derrickson went to the car and asked
Nave, “what [is] going on[?]” Tr. pp. 56-57. When Nave saw
Derrickson, he exited the other side of the vehicle. Nave did not
immediately leave the vicinity and stood face-to-face with
Derrickson briefly until he began to walk away and leave the
mall area. Derrickson noticed that Nave had something dark in
his hand but was unable to identify what it was. Derrickson later
identified Nave as the man he had seen in Clark’s car.
As a result of this incident, Clark was visibly shaken. Although
she initially told the police she was unhurt, she in fact had a
bleeding wound on her face and later developed bruises on her
face and hands.
Court of Appeals of Indiana | Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 2 of 12

On February 22, 2013, the State charged Nave with Class A
felony kidnapping and Class B felony attempted carjacking. On
June 24, 2013, a bench trial was held. Nave testified and
admitted that he had gotten into Clark’s car, but claimed that he
did so only to confront her because she had backed into his
vehicle. The trial court rejected Nave’s version of events and
found him guilty as charged.
Navev. State, Cause No. 48A02-1307-CR-632, *1 (Ind. Ct. App. 2013), trans.
denied.
[4]

Nave appealed, claiming the evidence was insufficient to sustain his kidnapping
conviction and that his sentence was inappropriate. A panel of this Court
affirmed the trial court’s judgment. See id.

[5]

In 2014, Nave filed a petition for post-conviction relief. The post-conviction
court held an evidentiary hearing on January 20, 2017 and denied the petition
on June 7, 2017. This appeal followed.

Discussion and Decision
I. Standard of Review
[6]

Post-conviction proceedings are civil proceedings in which the petitioner must
prove claims by a preponderance of the evidence. Hampton v. State, 961 N.E.2d
480, 491 (Ind. 2012). When appealing from the denial of a petition for post­
conviction relief, the petitioner stands in the position of one appealing from a
negative judgment. Campbell v. State, 19 N.E.3d 271, 274 (Ind. 2014). “As
such, the petitioner faces a rigorous standard of review.” Wesley v. State, 788
N.E.2d 1247, 1250 (Ind. 2003). To prevail on appeal, the petitioner must show
Court of Appeals of Indiana | Memorandum Decision 48 A04-1708-PC-2007 | August 29, 2018

Page 3 of 12

that the evidence as a whole leads unerringly and unmistakably to a conclusion
opposite that reached by the post-conviction court. Campbell, 19 N.E.3d at 274.
[7]

The post-conviction court issued findings of fact and conclusions thereon
pursuant to Indiana Post-Conviction Rule 1(6). We review the post-conviction
court’s factual findings for clear error, but we review questions of law de novo.
Wilkes v. State, 984 N.E.2d 1236, 1240 (Ind. 2013). The post-conviction court is
the sole judge of the weight of the evidence and the credibility of witnesses.
Davison v. State, 763 N.E.2d 441, 444 (Ind. 2002).

II. Sixth Amendment Right to Effective Assistance of Counsel
[8]

Nave claims his trial counsel made unreasonably deficient choices that resulted
in him being found guilty. To demonstrate a violation of the Sixth Amendment
right to effective assistance of counsel, a petitioner must prove the two
components of the test set forth in Strickland v. Washington, 466 U.S. 668, 104 S.
Ct. 2052, 80 L. Ed. 2d 674 (1984). Passwaterv. State, 989 N.E.2d 766, 770 (Ind.
2013). The petitioner must show that counsel’s performance fell below an
objective standard of reasonableness and that the deficient performance was
prejudicial. Bethea v. State, 983 N.E.2d 1134, 1138 (Ind. 2013). A petitioner
demonstrates prejudice by establishing a reasonable probability that, but for
counsel’s errors, the result of the proceeding would have been different. Id. at
1138-39. We afford great deference to counsel’s discretion to choose strategy
and tactics. McCary v. State, 761 N.E.2d 389, 392 (Ind. 2002). Further, we

Court of Appeals of Indiana | Memorandum Decision 48 A04-1708-PC-2007 | August 29, 2018

Page 4 of 12

strongly presume that counsel provided adequate assistance and exercised
reasonable professional judgment in all significant decisions. Id.
1. Probable Cause for Arrest
[9]

Nave first argues his trial counsel should have moved to suppress all evidence
obtained from his warrantless arrest because he believes there was no probable
cause. As a result, he claims the arrest violated his federal and state
constitutional protections against unreasonable search and seizure, and if
counsel had filed a motion to suppress, the motion would have been granted.

[10]

The Fourth Amendment provides:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable searches and seizures,
shall not be violated, and no Warrants shall issue, but upon
probable cause, supported by Oath or affirmation, and
particularly describing the place to be searched, and the persons
or things to be seized.

[ii]

Article one, section eleven of the Indiana Constitution contains similar
language:
The right of the people to be secure in their persons, houses,
papers, and effects, against unreasonable search or seizure, shall
not be violated; and no warrant shall issue, but upon probable
cause, supported by oath or affirmation, and particularly
describing the place to be searched, and the person or thing to be
seized.

[12]

In Indiana, a police officer may arrest a person without a warrant if the officer
has “probable cause to believe the person has committed or attempted to
commit, or is committing or attempting to commit, a felony . . . .” Ind. Code §
Court of Appeals of Indiana | Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 5 of 12

35-33-1-1 (2005). When a person is arrested without a warrant, the following
procedure applies:
(a) At or before the initial hearing of a person arrested without a
warrant for a crime, the facts upon which the arrest was made
shall be submitted to the judicial officer, ex parte, in a probable
cause affidavit. In lieu of the affidavit or in addition to it, the
facts may be submitted orally under oath to the judicial officer. If
facts upon which the arrest was made are submitted orally, the
proceeding shall be recorded by a court reporter, and, upon
request of any party in the case or upon order of the court, the
record of the proceeding shall be transcribed.
(b) If the judicial officer determines that there is probable cause to
believe that any crime was committed and that the arrested
person committed it, the judicial officer shall order that the
arrested person be held to answer in the proper court. If the facts
submitted do not establish probable cause or if the prosecuting
attorney informs the judicial officer on the record that no charge
will be filed against the arrested person, the judicial officer shall
order that the arrested person be released immediately.
Ind. Code § 35-33-7-2 (1982).
[13]

An officer filed a probable cause affidavit after Nave’s arrest. Nave claims that
the facts and circumstances, as set forth in the probable cause affidavit, do not
establish probable cause for his arrest. Probable cause to arrest exists when, at
the time of the arrest, the officer has knowledge of facts and circumstances that
would warrant a reasonable person to believe that the suspect has committed
the criminal act in question. Clark v. State, 808 N.E.2d 1183, 1192 (Ind. 2004).
The amount of evidence necessary to meet the probable cause requirement is
determined on a case-by-case basis. Id. It is grounded in notions of common

Court of Appeals of Indiana | Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 6 of 12

sense, not mathematical precision. Id. Probable cause requires only a fair
probability of criminal activity, not a prima facie showing, and may be
established by evidence that would not be admissible at trial. Lamagna v. State,
776 N.E.2d 955, 958 (Ind. Ct. App. 2002). Information received from witnesses
can serve as the basis for probable cause to arrest an individual. Decker v. State,
19 N.E.3d 368, 373 (Ind. Ct. App. 2014), trans. denied.
[14]

In the current case, the probable cause affidavit stated that Ruth Clark described
her assailant as an African-American male wearing “dark clothing, dark knit
cap and dark jacket.” Appellant’s App. Vol. 2, p. 6. She further stated the
assailant left the scene by walking to the north corner of the mall. Similarly,
Robert Derrickson described the suspect as an African-American male wearing
“Blk [sic] cap, leather looking coat, dark pants possibly work pants.” Id. He
told the officer the suspect walked north around the mall.

[15]

Next, the affidavit indicates Nave arrived at Manie Vive’s garage to ask for a
ride. Vive described Nave’s clothing to the officer and gave the officer Nave’s
name. The clothing was “the same described by the victim and witness.” Id.
Vive told the police Nave said he had just come from the mall.

[16]

Another officer went to Nave’s residence and saw a “similar looking male”
walk up to the home. Id. at 7. The male identified himself as Nave’s brother,
Chris Nave. Chris told the officer that Nave had called him to say he was “in
trouble.” Id.

Court of Appeals of Indiana | Memorandum Decision 48 A04-1708-PC-2007 | August 29, 2018

Page 7 of 12

[17]

The foregoing evidence from the probable cause affidavit would warrant a
reasonable person to believe that Nave was the person who attacked Clark.
Clark, Derrickson, and Vive described his clothing, and Vive knew Nave’s
name. Nave argues that the affidavit contains inconsistencies and
uncorroborated hearsay, but the State was not obligated to provide proof
beyond a reasonable doubt in the affidavit. Under these circumstances, Nave’s
counsel did not perform deficiently by failing to file a motion to suppress
because the motion would not have been granted.
2. In-Court Identification and Due Process ofLaw

[18]

Nave argues his trial counsel rendered ineffective assistance by failing to object
to Robert Derrickson’s in-court identification of Nave as the person who
attacked Clark. “[T]o prevail on a claim of ineffective assistance due to the
failure to object, the defendant must show an objection would have been
sustained if made.” Overstreet v. State, 877 N.E.2d 144, 155 (Ind. 2007).

[19]

Nave argues Derrickson’s in-court identification was improper because the
process through which Derrickson originally identified Nave for the police was
unduly suggestive. “There is a degree of suggestiveness which is inherent in all
in-court identifications; the practical necessity of having the appellant sit at the
defendant’s table with defense counsel naturally sets him apart from everyone
else in the courtroom.” Jeter v. State, 888 N.E.2d 1257, 1266 (Ind. 2008).
Nevertheless, a defendant’s Fourteenth Amendment due process right may be
violated by the admission of identification evidence that is the product of

Court of Appeals of Indiana 1 Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 8 of 12

unduly suggestive procedures. Young v. State, 700 N.E.2d 1143, 1146 (Ind.
1998).
[20]

We must consider the facts surrounding the pretrial procedure, including the
manner and form in which the police asked the witness to attempt the
identification and the witness’s interpretation of their directives, and whether
officials singled out the defendant as the suspect they most had in mind either
by their attitude displayed toward appellant or by the physical constitution of
the photo array or corporeal lineup. Brooks v. State, 560 N.E.2d 49, 55 (Ind.
1990). Whether a particular identification procedure rises to a level of
suggestiveness that constitutes reversible error must be determined from the
context of the case. Jeter, 888 N.E.2d at 1266. Inconsistencies in identification
testimony affect the credibility of the witness, not the admissibility of the
identification. Harris v. State, 619 N.E.2d 577, 581 (Ind. 1993).

[21]

Derrickson testified at Nave’s criminal trial. He stated that when he
approached Clark’s car and yelled, Nave got out of the car on the other side and
“kind of stood there” before walking away. Tr. Transcript Vol. 1, p. 57.
Derrickson agreed that he had gotten “a good look” at Nave after the attack
\

and identified him in court as the perpetrator. Id. at 65.
[22]

Detective Scott Sanderson interviewed Derrickson on February 16, 2013, after
the attack. Derrickson agreed that he could possibly identify Clark’s attacker.
The detective showed Derrickson a photographic lineup, saying “Just take your
time and look and tell me if you see anybody that looks like that person. And if

Court of Appeals of Indiana | Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 9 of 12

you don’t know, you just don’t know. That’s fine, too.” PCR Tr. Vol. 3, p. 10.
The State did not preserve the lineup, and the record does not indicate whether
a picture of Nave was included in the lineup. Derrickson was unable to identify
anyone as the attacker.
[23]

Detective Sanderson told Derrickson the lineup “isn’t good” and that he
wanted to find “a lot clearer photo.” Id. He offered to create another lineup, “a
better one maybe.” Id. at 11. The detective stressed, “So if you don’t really
know a hundred percent, I mean, I don’t want you to just pick.” Id.
Derrickson agreed he would review a “better photo lineup” later. Id.

[24]

On February 26, 2013, Detective Sanderson presented a different photographic
lineup to Derrickson. He identified Nave as the attacker. At Nave’s trial,
Derrickson testified about his inability to identify anyone in the February 13,
2013 lineup and his identification of Nave in the February 26, 2013 lineup.

[25]

Nave argues we must presume that his photograph was included in the first
photo array because the State failed to preserve the array. Reply Br. p. 6 (citing
Loomis v. Ameritech Corp., 764 N.E.2d 658 (Ind. Ct. App. 2002), trans. denied).
Even if Nave is correct, any inconsistencies between Derrickson’s reactions to
the February 13 and February 26 lineups would be relevant to his credibility,
not to the admissibility of Derrickson’s identification of Nave. Further,
Detective Sanderson never singled out Nave as a suspect or implied that a
suspect was included in the February 13, 2013 lineup. To the contrary, the

Court of Appeals of Indiana | Memorandum Decision 48 A04-1708-PC-2007 | August 29, 2018

Page 10 of 12

detective stressed that he was interested only in Derrickson’s honest, accurate
response regardless of the result.
[26]

Nave claims that during Detective Sanderson’s February 13, 2016 presentation
of the photographic lineup, the detective specifically pointed out Nave’s
photograph to Derrickson. We disagree with Nave’s reading of the record.
After Derrickson indicated he would be willing to review another photographic
lineup on a later occasion, Detective Sanderson stated as follows:
This one here was really kind of a spur of the moment thing, and
I thought if somebody got a really great look at somebody, they
might have been able to tell. I knew it would probably be a little
difficult. When you came out of the mall, before that incident,
you don’t remember ever seeing this guy anywhere (inaudible)
when you seen [sic] him today at all?
PCR Tr. Vol. Ill, p. 11. We are obligated to review the post-conviction record
in the light most favorable to the judgment, and we read Sanderson’s question
as a general question rather than as pointing to a specific picture in the
photographic lineup.

[27]

To summarize, we conclude the pretrial identification procedures were not
unduly suggestive, and the trial court’s admission of Derrickson’s in-court
identification of Nave as the attacker did not violate Nave’s right to due process
of law. See Harris, 619 N.E.2d at 581 (witness’s change of mind in description
of suspect went to credibility, not to admissibility of identification). Nave’s trial
counsel did not render ineffective assistance in failing to object to the in-court
identification because the objection would have been overruled.
Court of Appeals of Indiana | Memorandum Decision 48 A04-1708-PC-2007 | August 29, 2018

Page 11 of 12

¥

3. Appellate Counsel
[28]

Nave argues he received ineffective assistance of appellate counsel for failing to
challenge the probable cause for his arrest and for failing to challenge
Derrickson’s in-court identification of him as the suspect. Claims of ineffective
assistance of appellate counsel are governed by the two-part Strickland test
discussed above. Carter v. State, 929 N.E.2d 1276, 1278 (Ind. 2010). We have
already determined that Nave did not receive ineffective assistance of trial
counsel on the issues of probable cause and in-court identification.
Accordingly, his claims of ineffective assistance of appellate counsel on these
issues must also fail.

Conclusion
[29]

For the reasons stated above, we affirm the judgment of the post-conviction
court.

[30]

Affirmed.

Kirsch, J., and Crone, J., concur.

Court of Appeals of Indiana | Memorandum Decision 48A04-1708-PC-2007 | August 29, 2018

Page 12 of 12

J

►

State of Indiana

)

County of Madison

)
)

In the Madison Circuit Court
SS:
Div. 4

2017 Term

Cause No. 48C04-1412-PC-000044

JIMMY LEE NAVE, JR.,
Petitioner,
VS.

STATE OF INDIANA
Respondent.

(Underlying case No. 48C04-1302-FA-000409)

FINDINGS OF FACT. CONCLUSIONS OF LAW, AND ORDER DENYING POST­
CONVICTION RELIEF

Comes now the Court, upon consideration of the Petition for Post-Conviction Relief filed
herein.

Having considered the evidence and submissions of the parties, the Court now finds and

orders as follows (Where convenient, some conclusions of law may be included in the findings of
fact section, and vice versa):
FINDINGS OF FACT
1.

On February 22, 2013, Respondent State of Indiana charged Petitioner under

cause number 48C04-I302-FA-000409 with Kidnapping, a class A felony, and Attempted
Carjacking, a class B felony.
2.

On February 22, 2017, Attorney John Reeder was appointed to represent

Petitioner, and did in fact represent him through his trial and sentencing.
3.

On June 12, 2013, Petitioner filed a Motion to Waive Jury Trial. A hearing was

held on that motion on June 13, 2013, and the Court granted that request.

►

Jimmy Lee Nave, Jr. v. State of Indiana

48C04-1412-PC-000044

Findings of Fact, Conclusions of Law, and Order Denying Post-Conviction Relief

4.

A bench trial was held on June 18, 2013. At the conclusion of evidence, the Court

found Defendant guilty as charged.
5.

Sentencing was held on July 1, 2013. The Court concluded on double jeopardy

grounds that conviction and sentence could not stand on both counts, and therefore vacated the
conviction under Count II, Attempted Carjacking. For Count I, Kidnapping as a class A felony,
the Court sentenced Petitioner to a 38-year commitment to the Indiana Department of Correction.
35 years of this sentence were executed and ordered to be served at the Indiana Department of
Correction, and the remaining three were suspended, to be served on probation.
6.

Petitioner exercised his right to appeal, and the Court appointed attorney Thomas

Godfrey to perfect the appeal, which he did. On appeal, Petitioner argued that the evidence was
insufficient to support his conviction, and that his sentence was inappropriate. Ultimately, the
Indiana Court of Appeals affirmed his conviction and sentence in a unanimous decision.
7.

This Court has taken notice of the Indiana Court of Appeals’ opinion in 48A02-

1307-CR-000632.
8.

On December 17, 2014, Petitioner through counsel filed his petition for post-

conviction relief. His petition alleged that he had received ineffective assistance of trial and
appellate counsel, in that:
a. Trial counsel failed to:
i. challenge the probable cause affidavit,
ii. object to Petitioner’s arrest, and the detention, statements, and
evidence derived from that arrest
iii. challenge misleading statements in the probable cause affidavit,

2

Jimmy Lee Nave, Jr. v. State of Indiana

48C04-1412-PC-000044

Findings of Fact, Conclusions of Law, and Order Denying Post-Conviction Relief

iv. object to the in-court identification of Petitioner by State’s Witness
Robert Derrickson as unduly suggestive.
v. move to suppress trial testimony,
vi. adequately investigate the case, and
b. Appellate counsel failed to raise the foregoing issues on appeal.
9.

On December 19, 2014, the State filed its response, raising several affirmative

defenses.
10.

On January 20, 2017, the Court conducted an evidentiary hearing on the petition.

Witnesses were sworn, and evidence was heard and concluded. The appellate record was
admitted by stipulation of the parties. Petitioner testified. A transcript of Robert Derrickson’s
testimony was admitted.
11.

At the conclusion of the evidentiary hearing, the Court took the matter under

advisement.
12.

Facts related to Petitioner’s alleged errors of trial counsel are discussed below:
a. Trial counsel failed to challenge the probable cause affidavit; failed to
object to Petitioner’s arrest, and the detention, statements, and evidence
derived from that arrest; and trial counsel failed to challenge misleading
statements in the probable cause affidavit.

Petitioner asserts that Detective Sanderson was untruthful in paragraph 4 of the affidavit.
That paragraph states:

The suspect was later identified as Jimmy Lee Nave after he went
to Manies (sic) Garage and asked for a ride. Manie Vive (sic)
described Nave’s clothing as being the same described by the
3

1

'H-

Jimmy Lee Nave, Jr. v. State of Indiana

48C04-1412-PC-000044

Findings of Fact, Conclusions of Law, and Order Denying Post-Conviction Relief

victim and witness. Nave told Vive (sic) that his car was stranded
at the Mounds Mall by MCL and told Vive (sic) he left the scene
after hitting another vehicle.

Petitioner’s Hearing Exhibit 2, Appellant’s Appendix Vol. I of II, p.14. Witness Robert
Derrickson did give a detailed description of the clothing of the person he saw by the mall.
Petitioner’s Hearing Exhibit 1, p. 6. That description included a black cap, black leather-like
coat, and dark cotton work pants. Manuel Vives testified at trial that he knew Petitioner Jimmie
Lee Nave, Jr., through his father and working on the family’s vehicles, and that when Vives gave
Nave a ride shortly after the crime, that Nave was wearing a black jacket, black hat, and black
jeans. Petitioner’s Hearing Exhibit 2, Transcript of Evidence, Vol. I, part A, pp. 101-102,106107. The minor discrepancies between their descriptions are well within the bounds of
witnesses’ individual perceptions and memory, and do not undermine the Court’s confidence that
they were both describing Nave. The Court finds that no reckless or intentional falsity has been
demonstrated in the probable cause affidavit.
After consulting with trial counsel, Nave testified at his trial. While he disputed what
happened inside the car, Nave acknowledged in his testimony that he had gotten into the victim’s
car, encountered a bystander outside the car that the Court finds to have been Robert Derrickson,
and that he had gotten a ride with Manuel Vives. Petitioner’s Hearing Exhibit 2, Transcript of
Evidence, Vol. I, part B, pp. 137-139. Petitioner’s testimony corroborated that the facts and
conclusions in the probable cause affidavit were accurate.
The arrest in this case was warrantless (Petitioner’s Hearing Exhibit 2, Appellant’s
Appendix Vol. I of II, p.2) so there can be no error related to the issuance of the arrest warrant, as
alleged in paragraph 9(A)(3) of the Petition for Post-Conviction Relief. The Court does find that
4

Jimmy Lee Nave, Jr. v. State of Indiana

48C04-1412-PC-000044

Findings of Fact, Conclusions of Law, and Order Denying Post-Conviction Relief

the facts alleged in the probable cause affidavit did establish probable cause for Nave’s detention
for Carjacking and Kidnapping. Had trial counsel moved for Nave’s release due to a lack of
probable cause, moved to suppress statements due to arrest in the absence of probable cause, or
moved to suppress other evidence due to his warrantless arrest, these motions would have been
denied.
b. Trial counsel failed to object to the in-court identification of Petitioner by
State’s Witness Robert Derrickson as unduly suggestive.
Petitioner argues that Witness Robert Derrickson’s in-court identification was unduly
suggestive because Derrickson had failed to pick Nave out of a photo array before trial, and
identified him at trial only after seeing him seated in the Courtroom as the accused. The Court
finds that an objection to Robert Derrickson’s in-court identification of Nave would not have
been sustained. The earlier failure to identify a witness can certainly be considered by the trier of
fact in assessing the weight to give identification testimony, but does not bar a witness from
testifying. The Court does not find anything more suggestive about the in-court identification of
Nave than in any other case where a witness is asked to identify a defendant who is seated at a
counsel table. Also, in light of Nave’s decision to testify and admit that he was the person in the
f

victim’s car at the time of the offense, Nave has shown no harm from Derrickson’s identification.
c. Trial counsel failed to move to suppress trial testimony related to the
issues above, and failed to adequately investigate the case
Because the Court finds no errors related to the probable cause affidavit, arrest or in-court
identification, counsel did not perform below prevailing professional norms in failing to move to
suppress evidence related to these topics. Petitioner has failed to clearly allege and prove in what

5

>

"*■

••

*■

Jimmy Lee Nave, Jr. v. State of Indiana

48C04-1412-PC-000044

Findings of Fact, Conclusions of Law, and Order Denying Post-Conviction Relief

way trial counsel failed to adequately investigate. Trial counsel conducted significant crossexamination of the State’s witnesses, led Petitioner ably through his testimony, and presented a
closing argument that demonstrated command of the evidence.
13.

Petitioner claims he received ineffective assistance of appellate counsel failed to

raise the foregoing issues on appeal. Appellate counsel did not raise Petitioner’s allegations of
error committed by trial counsel. However, Petitioner has not demonstrated that an error was
present, preserved for review, and had a reasonable chance of success on appeal if raised.
CONCLUSIONS OF LAW
1.

Petitioner has alleged that his attorneys provided ineffective assistance during his

trial and appeal.
2.

Claims of ineffective assistance of counsel are evaluated according to the two-part

test set forth in Strickland v. Washington, 466 U.S. 668 (1984). To prevail on such a claim, a
petitioner must show that his lawyer’s performance fell below prevailing professional norms, and
that this deficient performance resulted in prejudice to him. Danks v. State, 733 N.E.2d 474, 485
(Ind.Ct.App. 2000). If there is a reasonable probability that, but for counsel’s deficient
performance, the result of the proceeding would have been different, then prejudice is
established. Id.
3.

Petitioner has failed to meet his burden to prove that his trial and/or appellate

counsel performed below prevailing professional norms, and failed to prove that he was
prejudiced by their representation. No ineffective assistance of either trial or appellate counsel
■)

has been proven by Petitioner.

6

(

m

**■

it

v

Jimmy Lee Nave, Jr. v. State of Indiana

48C04-1412-PC-000044

Findings of Fact, Conclusions of Law, and Order Denying Post-Conviction Relief

4.

The facts and the law are with Respondent and against Petitioner.

THEREFORE, IT IS ORDERED that the Petition for Post-Conviction Relief filed in this
action is denied. Petitioner’s conviction and sentence entered in 48C04-1302-FA-000409 remain
as previously ordered.

June 7, 2017
Date

David A. Happe, Judge
Madison Circuit Court 4

Distribution:
RJO
File
Petitioner, by counsel
Respondent, by counsel

7

4 *'V

.i-

JUmtcfr States Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
December 22, 2020

Before
Frank H. Easterbrook, Circuit Judge ~
Michael S. Kanne, Circuit Judge

Appeal from the United States
District Court for the Southern
District of Indiana, Terre Haute
Division.

No. 20-1883
Jimmy L. Nave, Jr.,
Petitioner-Appellant,
v.
Warden of Wabash Valley Correctional
Facility,
Respondent-Appellee.

No. 2:19-cv-00051-JRS-DLP
James R. Sweeney II, Judge.

Order
Petitioner-Appellant filed a petition for rehearing on December 18, 2020. Both of the
judges on the panel have voted to deny rehearing. The petition for rehearing is
therefore DENIED.

